HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Centers for Disease Control and Prevention's Award Process for a
Contract With Thrane and Thrane, Inc.," (A-04-06-01030)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency Response to Hurricanes Katrina and Rita:
Audit of Centers for Disease Control and Prevention's Award Process for a
Contract With Thrane and Thrane, Inc.," (A-04-06-01030)
December 13, 2006
Complete Text of Report is available in PDF format (94 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit is one of several reviews of procurements by the Centers for Disease Control and Prevention (CDC) and other components of the Department of Health and Human Services (HHS) in response to Hurricanes Katrina and Rita in 2005.
The Federal Acquisition Regulation (FAR) and the Health and Human Services Acquisition Regulation (HHSAR) provide, among other things, that HHS agencies award each contract to a responsible party and document compliance with requirements for full and open competition and the determination that the price was fair and reasonable.
Following the hurricanes, CDC’s Procurement and Grants Office modified an existing satellite telephone service contract with Thrane and Thrane, Inc. (Thrane). Our objective was to determine whether CDC complied with FAR and HHSAR requirements during the award process involving Thrane. CDC complied with the requirements.